No.- - - -

IN THE SUPREME COURT OF THE UNITED STATES
October Term, 2020

ALTON ALEXANDER NOLEN
Petitioner,

v.
THE STATE OF OKLAHOMA
Respondent.

CERTIFICATE OF SERVICE

I, James H. Lockard, a member of the bar of the United States Supreme Court, certify
that I have this l 61h day of August, 2021, served a copy of the Petition for Writ of Certiorari
to the Oklahoma Court of Criminal Appeals on counsel for respondent, The State of
Oklahoma, by depositing the same in the United States mail, with adequate first class
postage, prepaid addressed to: Attorney General, Office of the Attorney General of the State
of Oklahoma, 313 N. E. 215\ Oklahoma City, Oklahoma, 73105 and whose telephone
number is (405) 521-3921. All parties required to be served have been served.

